ED.gov
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Kansas City, MO, April 23, 2010
Office of United States Attorney
BETH PHILLIPS
Western District of Missouri
400 East Ninth Street, Room 5510
Kansas City, MO 64106
For Information Contact Public Affairs
Don Ledford (816) 426-4220
NEWS RELEASE
FORMER VATTEROTT DIRECTOR SENTENCED FOR FINANCIAL AID FRAUD KC SCHOOL RECEIVED $362,000 IN FEDERAL AID FOR INELIGIBLE STUDENTS
KANSAS CITY, Mo. – Beth Phillips, United States Attorney for the Western District of Missouri, announced that the former director of the Kansas City, Mo., campus of Vatterott College was sentenced in federal court today for his role in a conspiracy to fraudulently obtain nearly $362,000 in federal financial aid for ineligible students by providing false general equivalency diplomas (GEDs) and falsifying financial aid forms.
Kevin Earl Woods, 47, of Louisville, Ky., was sentenced by U.S. District Judge Gary A. Fenner this morning to one year and one day in federal prison without parole. The court also ordered Woods to pay $361,964 in restitution.
Woods pleaded guilty on Dec. 11, 2009, to his role in a conspiracy to fraudulently obtain federal student grants and student loans for ineligible students at Vatterott College from August 2005 to July 2006. As a result of this conspiracy,$361,964 in federal financial aid was disbursed to Vatterott College on behalf of students who were ineligible because they had neither graduated from high school nor obtained a General Equivalency Diploma (GED) certificate.
Woods began working at Vatterott College as an admissions representative in November 2003 and was eventually promoted to campus co-director, a position he held until June 2006. As campus co-director, Woods was responsible for overseeing the Kansas City campus of Vatterott, including the financial aid and admissions departments and including the approval of all prospective student enrollment agreements. Co-defendant Dominic L. Campbell, 39, of Kansas City, Mo., began working for Vatterott in December 2004 and was eventually promoted to director of enrollment, a position he held until his termination in July 2006. As director of enrollment, Campbell was responsible for supervising approximately 12 admissions representatives, including co-defendant Dale Odei Marbell, 33, a citizen of Ghana residing in Indianapolis, Ind. Marbell, who began working for Vatterott in July 2005, was an admissions representative until his termination in July 2006. Campbell and Marbell have also pleaded guilty to their roles in the conspiracy.
Woods, Campbell, and Marbell admitted that they enrolled students at Vatterott whom they knew were ineligible to receive federal funding. Not only did Vatterott obtain federal funds it was not entitled to receive, but the defendants took credit for artificially inflated enrollment numbers at Vatterott to increase the likelihood of promotion and advancement.
On many occasions, ineligible students who enrolled at Vatterott College without a high school diploma or GED were told to sign up for a GED class. A GED verification request form was placed in the student’s file, but the form was never actually sent to the state for verification. Additionally, all ineligible students who were enrolled without a high school diploma or GED were instructed by the conspirators to answer “Yes” to a Free Application for Federal Student Aid (FAFSA) form question which asked, “Will you have a high school diploma or GED before you begin the 200X -200Y school year?”
Additionally, the conspirators advised several eligible students (i.e., students with a valid high school diploma or GED) to list fictional dependents on their FAFSA forms believing that it would result in increased student financial aid.
Campbell was sentenced on Jan. 15, 2010, to three years of probation; he is also jointly and severally liable for $361,964 in restitution. Marbell was sentenced on Dec. 22, 2009, to time served and is jointly and severally liable for $361,964 in restitution.
This case was prosecuted by First Assistant U.S. Attorney David M. Ketchmark and Special Assistant U.S. Attorney Trey Alford. It was investigated by the Department of Education – Office of Inspector General.
This news release, as well as additional information about the office of the United States
Attorney for the Western District of Missouri, is available on-line at
www.usdoj.gov/usao/mow
Printable view
Last Modified: 04/26/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov